[2 E-Mail Address: 775 H Street, N.E.
Est sl briefs@wilsonepes.com Washington, D.C. 20002

WA TG Web Site: Tel (202) 789-0096
ase

www.wilsonepes.com Fax (202) 842-4896

No, 20-1114

AMERICAN HOSPITAL ASSOCIATION, et al.,

Petitioners,
v.

XAVIER BECERRA, in his official capacity as the
Secretary of Health and Human Services, et al.,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on September 10, 2021, three (3) copies of the BRIEF OF AMICI
CURIAE YALE NEW HAVEN HEALTH SYSTEM, BJC HEALTH CARE, CEDARS-SINAI
MEDICAL CENTER, GEISINGER, UPMC, AND VANDERBILT UNIVERSITY MEDICAL
CENTER IN SUPPORT OF PETITIONERS in the above-captioned case were served, as required
by U.S. Supreme Court Rule 29.5(c), on the following:

DONALD B. VERRILLI JR. BRIAN H. FLETCHER
MUNGER, TOLLES & OLSON LLP Acting Solicitor General
601 Massachusetts Avenue, NW UNITED STATES DEPARTMENT OF JUSTICE
Suite 500E 950 Pennsylvania Avenue, NW
Washington, DC 20001-5369 Washington, DC 20530-0001
(202) 220-1101 (202) 514-2217
Counsel for Petitioners Counsel for Respondent
American Hospital Association, et al. Xavier Becerra, in his official

capacity as Secretary of Health
and Human Services

The following email addresses have also been served electronically:

donald.verrilli@mto.com
SupremeCtBriefs@USDOJ.gov

wschultz@zuckerman.com 2 W. MM.

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 10th day of September 2021.

COLIN CASEY Shawn

NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
